HHS/OIG-Audit-"Audit of Graduate Medical Education Reimbursements Claimed by the Methodist Hospital for Fiscal Year 1999," (A-06-02-00018)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Graduate Medical Education Reimbursements Claimed by the Methodist
Hospital for Fiscal Year 1999," (A-06-02-00018)
June 5, 2002
Complete
Text of Report is available in PDF format (0.95 MB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report presents the results of our review of medical education payments
claimed by the Methodist Hospital (MH) during the fiscal year ended December
31, 1999.  We determined that MH overclaimed GME reimbursements by $30,230.
This overstatement occurred because MH misclassified non-primary residents as
primary residents on the cost report.  The cost classification error did
not affect the GME/IME FTE count or IME reimbursement.  The MH agreed with
our findings and recommendations.